<html>
<title> - [H.A.S.C. No. 115-88 ] - FISCAL YEAR 2019 BUDGET REQUEST FOR NATIONAL SECURITY SPACE PROGRAMS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 115-88]
                     ____________________________
                     
                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

  FISCAL YEAR 2019 BUDGET REQUEST FOR NATIONAL SECURITY SPACE PROGRAMS

                               __________

                              HEARING HELD
                             MARCH 15, 2018


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     
  
                           _________ 
                                  
                U.S. GOVERNMENT PUBLISHING OFFICE
29-492                    WASHINGTON : 2019     





                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

DOUG LAMBORN, Colorado               JIM COOPER, Tennessee
DUNCAN HUNTER, California            SUSAN A. DAVIS, California
MO BROOKS, Alabama                   RICK LARSEN, Washington
JIM BRIDENSTINE, Oklahoma            JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              BETO O'ROURKE, Texas
MIKE COFFMAN, Colorado               DONALD NORCROSS, New Jersey
BRADLEY BYRNE, Alabama               COLLEEN HANABUSA, Hawaii
SAM GRAVES, Missouri                 RO KHANNA, California
JODY B. HICE, Georgia
                Sarah Mineiro, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Rapuano, Hon. Kenneth P., Assistant Secretary of Defense for 
  Homeland Defense and Global Security, Department of Defense....     4
Raymond, Gen John W., USAF, Commander, Air Force Space Command...     2
Sapp, Hon. Betty J., Director, National Reconnaissance Office....     3

                                APPENDIX

Prepared Statements:

    Rapuano, Hon. Kenneth P......................................    46
    Raymond, Gen John W..........................................    21
    Rogers, Hon. Mike............................................    19
    Sapp, Hon. Betty J...........................................    40

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................    63
    Mr. Lamborn..................................................    61
    Mr. Rogers...................................................    61
    Mr. Turner...................................................    62
      

  FISCAL YEAR 2019 BUDGET REQUEST FOR NATIONAL SECURITY SPACE PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Thursday, March 15, 2018.
    The subcommittee met, pursuant to call, at 4:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. I want to welcome everybody to 
this hearing of the Subcommittee on Strategic Forces and our 
hearing on the 2019 budget request for national security space 
programs.
    Unfortunately, as everybody in the room now knows, we were 
interrupted by votes, and we are an hour behind starting off. 
So for the sake of not keeping you all here all night, I am 
going to submit my opening statement for the record, and the 
ranking member has told me that he is going to submit his 
opening statement for the record, too.
    So we will go straight to your opening statements. And I 
would ask that each of you have 5 minutes. Your entire 
statement will be accepted into the record, so if you would 
just summarize it, we will get to questions and answers and 
finish this session and go to the classified section 
immediately after that.
    So, with that, thank you all for being here. I know it 
takes a lot of time and energy to prepare for these things, but 
it really helps us. We really need to hear your thoughts at 
this time of year.
    So, with that, I will recognize General Raymond.
    Well, first let me recognize we have General Raymond with 
us today, Betty Sapp from NRO [National Reconnaissance Office], 
and the Honorable Kenneth Rapuano.
    We will start with General Raymond for your opening 
statement. You are recognized.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 19.]

 STATEMENT OF GEN JOHN W. RAYMOND, USAF, COMMANDER, AIR FORCE 
                         SPACE COMMAND

    General Raymond. Thank you.
    Chairman Rogers, Ranking Member Cooper, distinguished 
members of the subcommittee, I am honored to appear before this 
committee.
    And this time it is my first time being able to testify in 
front of you in my dual hat as the Air Force Space Command 
commander and as the Joint Forces Space Component commander, a 
component of U.S. Strategic Command. I have the absolute 
distinct privilege of leading and representing both the Air 
Force and joint space personnel, who underpin successful global 
operations for our joint force and our Nation.
    As I have stated previously, I am increasingly convinced 
that we are at a strategic inflection point and that we must 
accelerate our preparations to protect and defend against a 
conflict that begins in, or extends to, space, and that is 
exactly what we are doing.
    Today's space capabilities are the foundation of power 
projection and fuel our joint force lethality. A high-end 
conflict may begin in our domain, which will require us to 
fight for space superiority.
    As a component of United States Strategic Command, I would 
be remiss if I didn't echo the words of my boss, General Hyten, 
to say that our force is fully prepared to deter and, if 
necessary, to respond, and win, if deterrence were to fail.
    As our National Security Strategy states, the United States 
considers unfettered access to and freedom to operate in space 
to be a vital interest. Our National Defense Strategy clearly 
articulates that the central challenge to the United States 
prosperity and security is the reemergence of long-term 
strategic competition.
    Space is a warfighting domain, just like air, land, and 
sea. This budget is aligned with the National Defense Strategy 
to meet our warfighting imperatives necessary to compete, 
deter, and win. This budget marks a bold shift towards an 
increased focus on space superiority in a contested 
environment.
    Specifically, we are enhancing our space situational 
awareness and our ability to command and control. We are 
shifting towards more defendable architectures. We are 
investing in tests and training infrastructure to further 
enhance our readiness. And, finally, we are enhancing our 
partnerships with the intelligence community, our allied 
partners, and the commercial space industry.
    I thank you for your support, and I look forward to working 
with Congress as we continue to focus on our national security 
space posture.
    I am privileged, absolutely privileged, to be here with my 
distinguished colleagues on the panel this afternoon, and I 
look forward to your questions. Thank you.
    [The prepared statement of General Raymond can be found in 
the Appendix on page 21.]
    Mr. Rogers. Thank you, General.
    The Chair now recognizes Betty Sapp, Director of the 
National Reconnaissance Office.

      STATEMENT OF HON. BETTY J. SAPP, DIRECTOR, NATIONAL 
                     RECONNAISSANCE OFFICE

    Ms. Sapp. Thank you, Chairman Rogers, Ranking Member 
Cooper, and distinguished members of the committee. It was a 
great pleasure to host you and your committee members out at 
the NRO, and it is a great honor for me to be here today.
    The NRO has a very clear and a very critical mission for 
the Nation: We provide the space-based ISR [intelligence, 
surveillance, and reconnaissance] capabilities necessary to 
assure the U.S. an information and operational advantage.
    The NRO is structured for success. We are small and 
streamlined with end-to-end mission responsibility. We have 
enjoyed success in all aspects of that end-to-end mission. Our 
research and development team has developed and matured the 
next-generation technology necessary to stay ahead of changing 
targets and threats, fill current mission gaps, and develop new 
partnerships. Our acquisition teams are delivering the 
capabilities our users need on time and within budget.
    In 2017, for the ninth consecutive year, we achieved a 
clean independent audit opinion, demonstrating our ability to 
properly manage and account for the resources entrusted to us. 
We had four successful launches last year, including our first 
on a SpaceX Falcon 9. Finally, and most importantly, we 
continued to deliver critical operational capabilities with a 
better than 99.7 percent reliability.
    Our fiscal year 2019 budget request will build on the 
successful history of delivering innovative overhead 
intelligence systems for national security with the resilience 
required for the threat environment we face. We are 
specifically focused on investments that will deliver and 
assure the space-based capabilities we will need in a future 
fight: more resilience, more capability and capacity, and more 
speed.
    Greater resilience continues to be a top priority. 
Processes and CONOPS [concept of operations] to protect our 
current on-orbit systems are being refined and tested, and our 
people are being trained to use them to full advantage. New 
systems will have resiliency features built in as an inherent 
part of their design.
    In a future conflict, resilient space must backstop and 
work in concert with resilient air assets. Our investments 
focus on achieving the capacity and the capabilities required 
by the IC [intelligence community] and the DOD [Department of 
Defense]. We are increasing persistence in the ``look rate'' 
from space, reducing the gaps currently exploited by our 
adversaries.
    Finally, we require more capacity and capabilities in 
space. They must be combined to deliver that critical 
information directly to warfighters at the tactical edge and in 
the fight, and it must be delivered when they need it. Enabled 
by advances in artificial intelligence, automatic target 
recognition, machine learning, and emerging technology, the NRO 
plans to do exactly that.
    Everyone at the NRO is focused on our mission: delivering 
innovative overhead intelligence systems for national security. 
The current and projected threat environment doesn't change our 
mission, it just makes it more challenging. The men and women 
of the NRO are more than up to that challenge.
    Thank you for your support, and I look forward to your 
questions.
    [The prepared statement of Ms. Sapp can be found in the 
Appendix on page 40.]
    Mr. Rogers. Thank you very much.
    The Chair now recognizes Kenneth Rapuano, Assistant 
Secretary of Defense for Homeland Defense and Global Security.
    You are recognized for 5 minutes. Thank you.

 STATEMENT OF HON. KENNETH P. RAPUANO, ASSISTANT SECRETARY OF 
DEFENSE FOR HOMELAND DEFENSE AND GLOBAL SECURITY, DEPARTMENT OF 
                            DEFENSE

    Secretary Rapuano. Thank you, Chairman Rogers, Ranking 
Member Cooper, and distinguished members of the subcommittee. 
It is an honor to appear before you today along with General 
Jay Raymond, Commander of Air Force Space Command and the U.S. 
Strategic Command Joint Force Space Component commander, and 
Ms. Betty Sapp, Director of the National Reconnaissance Office.
    Space is a warfighting domain, and just as in air, land, 
sea, and cyberspace, the Department of Defense must be prepared 
to address any and all threats to our national security. Space 
systems provide our joint force an unmatched ability to project 
power globally, respond to crises rapidly, strike swiftly and 
precisely, and command forces in multiple theaters of operation 
simultaneously.
    Our National Security Strategy and the National Defense 
Strategy prominently recognize the criticality of space and 
acknowledge the potential for conflict to extend into space.
    Our new National Defense Strategy [NDS] charts the course 
for how DOD will contribute to each of the National Security 
Strategy's four national interests. Under the new NDS, long-
term strategic competition with China and Russia are the 
principal priorities for the Department. Addressing the 
challenges posed to our preeminence as a space power is 
fundamental to that effort.
    Today's potential adversaries and competitors have studied 
how the U.S. joint force operates, and they are rapidly 
developing capabilities designed to challenge our freedom of 
action across all domains. Those potential adversaries view 
space as an area where they could weaken our advantage and 
cause cascading impacts on our sea, air, land, and cyber 
systems that rely on our space-based capabilities. Denial of 
U.S. space advantage is a key component of their strategy.
    With this budget, the Department is making critical 
investments in capabilities necessary to protect and defend the 
space domain to ensure the mission to compete, deter, and win 
in the face of growing challenges.
    The fiscal year 2019 budget request prioritizes activities 
to address the space threat and improves on the performance of 
our space systems. Our aim remains to deliver the space effects 
to enable the combat edge our Nation and our warfighters must 
have.
    We also recognize the important need for the Department to 
be organized and structured most effectively to deliver on our 
duty to protect the Nation and its vital interests. The 
Department must accelerate, and is accelerating, its response 
to the changing dynamics of space.
    The Deputy Secretary of Defense has heard Congress' 
concerns, and consistent with the NDAA [National Defense 
Authorization Act] for Fiscal Year 2018 has already taken 
action through interim implementation guidance and looks 
forward to completing the directed studies and changes that may 
be required.
    The Department's partnership with Congress is and will 
remain absolutely critical to our success. To that end, I 
remain grateful for this subcommittee's strong support and 
interest in this vital area and its advocacy to dissuade 
aggression and establish a lethal force with the unmatched 
ability to prevail in, from, and through the ultimate high 
ground of space.
    I look forward to your questions. Thank you.
    [The prepared statement of Secretary Rapuano can be found 
in the Appendix on page 46.]
    Mr. Rogers. Thank you. I now recognize myself for 
questions.
    General Raymond, the space launch industry is innovating in 
some pretty incredible ways that could increase capability and 
reduce costs, like moving toward reusable launch vehicles. 
Given all of this, how does the Air Force plan to integrate 
reusability into its launch program, and does the LSA [Launch 
Service Agreement] contemplate reusability?
    General Raymond. Thank you, Congressman Rogers.
    I have gone on the record in the past saying I fully 
support reusability. In my opinion, we would be stupid not to 
go down that path. It saves us money, and it will make sure 
that we do it smartly and that we will be able to launch 
effectively, but we fully intend to capitalize on the 
advantages that the U.S. industry has with reusability.
    Mr. Rogers. Great.
    Mr. Rapuano, given President Trump's recent endorsement of 
the establishment of an independent space force, do you think 
the Department should implement that direction? Because it is 
consistent with what this committee and the House of 
Representatives has called for in the buildup to this last 
NDAA.
    Secretary Rapuano. Congressman, the President is very 
focused on outcomes. He has prioritized space, he has 
recognized the threats that have evolved and the pace at which 
they have evolved, and he recognizes it as a warfighting 
domain.
    He also is very interested in ensuring that the Department 
is best organized and equipped to achieve our vital missions in 
space, and he is very interested in exploring any options that 
can provide that enhanced capabilities.
    The Deputy Secretary, as you know, is leading the 
organizational and management review for the Department, 
consistent with the NDAA. Assessment of the space corps is one 
of those options that is getting close attention, among others. 
And he is going to be recommending that set of options that 
best ensures lasting U.S. leadership and success in space by 1 
August, per the requirement.
    Mr. Rogers. Well, I agree, the President cares about 
outcomes. But I would ask you to go back and look at his exact 
words, and they were: We should have a space force; we will 
have a space force.
    You are right, though, Deputy Secretary Shanahan is charged 
with trying to design that. I just was hoping you could show us 
a little bit of what it might look like before he does it, but 
apparently that is not going to happen.
    With that, General Raymond, yesterday in the full committee 
we had some testimony about how, if the Air Force really wanted 
to, while we are between where we are now and the establishment 
of this new space force, or space corps, whatever it is going 
to be, which will not be in the immediate future, the Air Force 
has a lot of challenges in dealing with the national security 
space and some of the threats that we face.
    It was proposed yesterday in the hearing that if the Air 
Force really wanted to demonstrate that they get it and they 
are going to get after this, they would raise the profile of 
space in the Department and put a significantly larger amount 
of money against that challenge.
    And I don't expect you to have the number today, but I 
would ask you to, at your earliest convenience, after you think 
about this a while, kind of get back to me and let me know what 
you think that number might be to enable you to have all the 
resources you need to get after the challenge fast.
    General Raymond. I will be happy to do that.
    I will tell you, I think the profile of space is pretty 
high in the Air Force. It is very high in the Air Force. This 
budget this year represents across the FYDP [Future Years 
Defense Program] an 18 percent increase, about a $7 billion 
increase across the FYDP.
    But I will be happy to put some thought on that. I have 
been focused on this budget. I will be happy to put some 
thought on that and come back to you.
    Mr. Rogers. Thank you very much, General.
    And the Chair will now recognize my friend and colleague 
from Tennessee, Jim Cooper, for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    I welcome the stronger Air Force budget. But I will defer 
questions for the closed session, in view of the lateness of 
the hour and the excellent attendance by my Democratic 
colleagues. Thanks.
    Mr. Rogers. The Chair recognizes the gentleman from 
Colorado, Mr. Lamborn, for any questions he may have.
    Mr. Lamborn. Thank you. And I will have some questions for 
the closed hearing, but I have got a couple for right now. And 
I appreciate the conversations we have had recently.
    The $350 million in unfunded priorities. Now, as you told 
me earlier, there is a $7 billion increase. However, we have to 
draw the line somewhere when we are doing budgets. But if you 
could have that extra $350 million, what would we be able to 
get for that? And what are we losing by not having that?
    General Raymond. Congressman, thanks for the question.
    The way the Air Force did the unfunded priority list was, 
obviously, it is in its name, priority. So we have prioritized 
those activities that we couldn't fit into the budget, although 
$7 billion is a significant increase for space and is really, 
as I mentioned in my opening comments, a bold shift towards 
warfighting and being able to protect and defend those assets 
in a contested domain.
    But I will be happy to come back to you and talk 
specifically about the items that are in the unfunded priority 
list, but they give Congress options in a priority order to 
help accelerate some of the things that we already have in the 
program.
    Mr. Lamborn. Okay. Well, we can continue that discussion.
    I would also like to ask you about the increased need for 
space warfighting training. Now that everyone has recognized 
that space is contested and it is a warfighting domain, we need 
to have the personnel who have the training necessary to excel 
in that domain.
    What are your thoughts on that?
    General Raymond. It is a key focus area for us. I have been 
focused on that since the day I took command, the professional 
development and training.
    We have made some pretty significant strides towards that 
end. We have implemented the Space Mission Force, which has 
allowed us to enhance the advanced training of our crews. We 
have implemented what we call Space Flags [exercises], 
analogous to Red Flags, to increase the focus of that as well.
    And what I would suggest to you, it is not just about space 
training. It is about multi-domain training. And really what I 
am focusing on is making sure that we have space operators that 
are very smart in joint warfighting, and that we have joint 
warfighters that are also very smart in space, because it is 
that multi-domain collaboration and strength that is going to 
carry us to where we need to be in the future.
    We also in this budget spent about approximately $175 
million to get after additional trainers, exercises, and war 
games.
    Thank you.
    Mr. Lamborn. That is really good to see.
    And, lastly, for any one of you, can we do a better job of 
partnering with the commercial sector, with private industry, 
to accomplish our goals? And, if so, how?
    General Raymond. I don't want to monopolize this hearing, I 
will deflect, but I am passionate about this as well. We are 
working very closely with our commercial customers, and I think 
this will provide us significant advantage going forward.
    One of the things that we have done on this budget, the 
Enterprise Space Battle Management Command and Control program 
is focused on building open standards in a consortium approach 
to energize and harness all of industry focusing on these 
issues. It is a key priority for us going forward, and you will 
see that reflected in our budget.
    Mr. Lamborn. That is great.
    And either one of you.
    Ms. Sapp. The NRO has always been about 95 percent of its 
budget in industry, on contract. So we have always been a close 
partner with industry today. And as new commercial providers 
are coming in, certainly we are looking at every way to team 
with them and leverage our capabilities.
    Secretary Rapuano. I would just add that this is a real 
intense focus of the Deputy Secretary of Defense, who is 
leading the reform efforts in the Department, obviously a big 
component focused on acquisition. And he is all about 
leveraging the commercial sector more effectively, and I think 
that we are going to be seeing a number of reforms in that 
area.
    Mr. Lamborn. Okay. These are excellent things. Thank you 
for the great work that you are doing.
    Mr. Chairman, I yield back.
    Mr. Rogers. The gentleman yields back.
    The Chair will pause for a little housekeeping that I 
overlooked at the beginning of the hearing.
    We have two members of our full committee that are with us 
today that are not members of the subcommittee. I would like to 
ask unanimous consent that Mr. Moulton of Massachusetts and Ms. 
Bordallo of Guam sit in on this hearing and be able to 
participate.
    Without objection, so ordered.
    The Chair now recognizes Mr. Norcross from New Jersey.
    Mr. Norcross. Thank you, Chairman.
    General Raymond, you have had comments, as it started from 
this, how we are trying to get caught up and take advantage, 
whether it is private industry and others. The Air Force 
publicly says they want to move fast and get effective 
capabilities deployed, which is why section 1610 of the final 
NDAA for 2018 conference agrees, requires that the United 
States Air Force operationalize existing best-of-breed 
commercial space situational capabilities, but not later than 
May 30, 2018.
    What is the plan to operationalize the best-of-breed 
commercial SSA [space situational awareness] capabilities by 
this required deadline? And this has been ongoing.
    General Raymond. Yes, it has been. In fact, we leverage 
them pretty heavily today. If you look at the C2 [command and 
control] system that we have today, called the JSpOC [Joint 
Space Operations Center] Mission System, commercial 
capabilities are leveraged pretty significantly in that.
    We also have stood up a capability in Colorado Springs, 
called Catalyst Campus, where we are bringing commercial 
applications in. The commercial companies can test them out 
there, and then we will roll them into our ops center to 
facilitate their integration into our operations.
    And then, finally, as I mentioned earlier, in the 
Enterprise Space Battle Management Command and Control, what we 
are trying to do is not to have just one company be a winner 
and then to have a whole bunch of losers. We are trying to 
energize the entire industry by developing open standards and 
having a consortium-based approach where everybody can play.
    And that is what we are doing. We will have a prototype 
done by 2021, and I am eager to get all of commercial industry 
wrapped around those standards.
    Thank you.
    Mr. Norcross. But let me follow up with that.
    Then General Buck, commander of the Joint Forces Command, 
talked about this and said our capabilities were at a 3. Why 
are we not doing this quicker, not waiting for everybody to 
come onboard, but take advantage of what we have now, and then 
build up to that?
    General Raymond. I must not have been clear. We are taking 
advantage now. We will continue to take advantage now. This is 
a future C2 system going forward that we are building the 
entire system off of the commercial open standards. But we are 
leveraging those today, and will continue to leverage 
commercial industry hard as we look to fill some of the gaps 
that we have.
    Mr. Norcross. I will wait for the closed session when we 
can get into it in a little bit more detail.
    I yield back.
    Mr. Rogers. The gentleman yields back.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    I am not sure exactly who this question goes to, and I do 
have some others for our closed session, but just a couple 
right now.
    Does the DOD need to be more assertive about blocking 
potential acquisitions of U.S. companies by China in the space 
industry in ensuring security here?
    Secretary Rapuano. Congressman, that is a key issue. Thank 
you for raising it.
    This is an issue that both the Secretary and the Deputy 
Secretary have raised, looking at supply chain, looking at the 
implications of foreign ownership or investment in capabilities 
that are critical or essential to national security.
    I believe you are familiar with the CFIUS [Committee on 
Foreign Investment in the United States] process in which these 
types of transactions are assessed by an interagency committee, 
accessing intelligence and other sources of information to make 
assessments on the relative risk associated with these 
transactions.
    So I think that we are definitely focused within the 
Department on the ways in which adversaries can all too easily 
acquire capabilities or knowledge that they could use against 
us, and we are actively involved in that process.
    Mr. Hice. I am really glad to hear that.
    So are you saying then that the DOD is responsible or 
authorized to block these kinds of acquisitions?
    Secretary Rapuano. The DOD is involved in the interagency 
process that makes conclusions on transactions that are 
concerning and then rise to the CFIUS process.
    Mr. Hice. So they have significant influence in the 
decision?
    Secretary Rapuano. We are a pretty significant voter in the 
process.
    Mr. Hice. Great. One other quick question, then I will 
defer my other questions.
    During a Red Flag event, or some other kind of training 
event, are these services taking into account the possibility 
of a partial loss of our satellite communications?
    General Raymond. Absolutely. We embed our space operators 
into those exercises. The Space Flag exercise that we also 
stood up complements that. But we exercise that routinely.
    Mr. Hice. Okay. Great. So are any of your offices, or all 
of your offices, involved in crafting those type training 
exercises?
    General Raymond. Sir, that falls under my responsibility to 
organize, train, and equip at Air Force Space Command. We work 
that routinely.
    Mr. Hice. Okay. Very good.
    Thank you, Mr. Chairman. I will yield back.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Washington State, Mr. Larsen, for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman. I would like to yield 
my time to Mr. Moulton from Massachusetts.
    Mr. Rogers. The gentleman yields to Mr. Moulton from 
Massachusetts. The gentleman from Massachusetts is recognized 
for 5 minutes.
    Mr. Moulton. Thank you, Mr. Larsen.
    Thank you, Mr. Chairman.
    General Raymond, China has successfully conducted test 
launches of several effective anti-satellite missiles, 
ostensibly able to destroy U.S. satellites. This development 
fundamentally alters the strategic balance between great 
powers, and it has continued to evolve in favor of China, which 
has accelerated development of space weapons.
    Public reports indicate China would be able to destroy a 
staggering number of U.S. satellites in the opening days of a 
potential conflict, thereby disabling many of the capabilities 
we have come to rely on in the United States military--GPS 
[Global Positioning System], surveillance, targeting, 
communications, and more.
    I will be following up on this in the classified setting, 
but can you just give us an overview of what our strategy is to 
counter those capabilities? And echoing some of the other 
questions we have heard from the committee, are we really 
committing enough resources to this development that could 
truly fundamentally alter the strategic balance?
    I would add that Ms. Sapp talked about the development of 
AI [artificial intelligence] as one of the things that we are 
investing in. I mean, China has made a commitment to be the 
world's leader in AI by 2030. You have never heard such a 
commitment from us.
    I am just concerned that we are falling behind and this is 
a place where, because of the strategic implications, we 
clearly have to lead.
    General Raymond. Space is a warfighting domain, just like 
air, land, and sea, and it has become very contested, as you 
talked about, everything from low-end reversible jamming to the 
high-end direct ascent ASAT [anti-satellite weapon] that was 
demonstrated in 2007, which you highlighted in your question.
    One of the things is we have a strategy, and really it is a 
strategy that we share between the NRO and the Department of 
Defense. We have a vision. We took that vision and we wrapped 
an operational concept around it, called the space warfighting 
CONOPS. We have trained and exercised for that, and there are 
several lines of effort that we are doing.
    Again, if you are responsible for operations in the 
warfighting domain, you have to have the ability to have domain 
awareness, SSA, so we are enhancing that in this budget.
    You have to have the ability to command and control, and so 
we are invested significantly in our command and control 
capabilities.
    You have to have defendable architectures, and in this 
budget we have made a significant shift towards having those 
architectures that we are able to defend.
    You have to have partnerships, just like we have in all 
other aspects of joint warfare.
    Mr. Moulton. If I may interrupt, that all sounds wonderful. 
But the question really is, are those investments significant 
enough? Are they significant enough to compete with our great 
power adversaries, who have really stuck their flag in the sand 
and said, ``This is where we will be in 2020 and 2030''?
    General Raymond. So my view is that we still have the best 
space capabilities in the world, operated by the best airmen. 
We have competitors that are moving very quick, and we need to 
pick up the pace to stay ahead of that threat.
    I am comfortable that the $7 billion that we have invested 
across this FYDP is going to shift and provide us the 
capabilities that we need to stay ahead of that threat as we 
continue down the path.
    Mr. Moulton. Director Sapp or Assistant Secretary Rapuano, 
would you like to add to that?
    Ms. Sapp. I will just agree with General Raymond that I 
think we have not only plans, but programs in place to defend 
against the weapons you are talking about. I think we could 
give you some more detail in the classified follow-on.
    I would also mention that we have been working automated 
intelligence, automated target recognition for quite some time 
and have made real progress. In fact, it is in operations 
today.
    Secretary Rapuano. I think it is well covered by General 
Raymond and Director Sapp. And just to reiterate, the emphasis 
is that we are going to be able to prevail in all of those 
domains critical to our national security in achieving our 
objectives.
    Mr. Moulton. Thank you.
    Thank you very much, Mr. Larsen.
    Mr. Chairman, thank you.
    Mr. Rogers. The gentleman yields back.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Coffman, for 5 minutes.
    Mr. Coffman. Mr. Chairman, I will follow up with these 
questions in the classified setting, as well.
    General Raymond, it is my understanding that the 
traditional Evolved Expendable Launch Vehicle, EELV, providers 
are contracted under Federal Acquisition Regulations, the FAR, 
15, while new entrants are contracted under FAR 12. It is also 
my understanding that FAR 12 is a more commercial way of doing 
business than FAR 15.
    Could you explain the difference in procuring launch 
services using FAR 12 versus FAR 15? And does DOD have the same 
insight on cost, as well as oversight on mission assurance, 
when using both of these contracting methods, or is one more 
stringent than the other?
    General Raymond. Congressman, first of all, it is good to 
see you. I am going to take that for the record. I am not an 
acquisition background guy, and I just don't know the answer to 
your question. So I will be happy to take it back and talk to 
our acquisition professionals and get you an answer.
    [The information referred to was not available at the time 
of printing.]
    Mr. Coffman. Okay.
    At the hearing yesterday, General Raymond, about space 
warfighting readiness, the panelists made it quite clear that 
our Nation's space warfighting construct must adapt to the 
threats we face today and in the future. It is evident that the 
Air Force recognizes this.
    However, the new start program to SBIRS [space-based 
infrared system], the Next-Generation Overhead Persistent 
Infrared, is not clear. As the panelists put it, ``It is not 
clear how the alternative is substantially a different 
approach,'' unquote. Quote, ``The budget request is not more 
resilient,'' unquote. And, quote, ``Disaggregating does not 
necessarily improve missions or deterrence,'' unquote.
    Could you comment on that?
    General Raymond. I will be happy to comment on it.
    It is more resilient. In fact, the NDAA required STRATCOM 
[U.S. Strategic Command] and SSDP [Space Security and Defense 
Program] to do an assessment of that. They have done that. And 
I will be happy to talk to you more in the closed session about 
it.
    Mr. Coffman. Okay.
    Mr. Chairman, I yield back.
    Mr. Rogers. The gentleman yields back.
    The Chair now recognizes the gentleman from California, Mr. 
Garamendi, for 5 minutes.
    Mr. Garamendi. I will pass and hopefully get to the 
classified ASAP [as soon as possible].
    Mr. Rogers. We have no further Republicans.
    The Chair now recognizes the gentlewoman from Guam, Ms. 
Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And thank you to our witnesses for being here today.
    General Raymond, there is an urgent need to rapidly 
reconstitute and replenish critical space capabilities to 
preserve continuity of operations capability. So can you speak 
to some of the investments in low-cost responsive launch 
options that you would recommend the Department pursue to 
fulfill this need?
    General Raymond. Thank you. And it is great to see you 
again.
    We have invested in this budget pretty significantly in 
small launch options. I think it is really important, as you 
said, for replenishment.
    We have gone through a period of this before. We did this 
in the early 1990s when we first launched satellites called 
Iridium, where there is a large constellation of smaller 
satellites, and there were a lot of companies that were being 
developed to do the replenishment launches.
    As you look to new space and constellations that are going 
to be of significant size, I think it is going to be important, 
and we have invested in that in this budget.
    Ms. Bordallo. All right. This next question is important to 
me, and I guess any of you could answer, if you could.
    Today, nearly all U.S. national security satellites are 
launched from fixed coastal U.S. launch sites that could easily 
be disrupted. These fixed sites also provide predictable 
locations from which adversaries could get clues to discern 
U.S. capabilities.
    Is the Department of Defense developing more launch sites 
using new commercial capabilities to address these weaknesses 
and support a rapid, responsive, and resilient launch 
capability?
    I am a Representative from Guam, and I will say here that 
there have been inquiries about space capabilities in our 
territory from commercial investors. Very recent were these 
visits, and they are very ambitious to begin operations.
    So could any of you comment on this?
    General Raymond. Yes. There are commercial launch sites 
that are available today. We have got them. On our fixed bases, 
we have commercial sites. We also have different space ports in 
New Mexico, in Alaska, in Florida, and in Virginia. So there 
are multiple space ports.
    Ms. Bordallo. Is Guam on the list, General?
    General Raymond. We would be happy to put Guam on the list, 
because I think it is important. I think resiliency is 
important.
    I will say, one of the big things that has happened over 
the course of the last year, which is significant, and it 
doesn't get a lot of press, and that is the move to autonomous 
flight termination systems in the autonomous ranges.
    So today every time SpaceX does a launch, they do it 
autonomously. So we have to have the ability to protect 
populations. You have to have the ability to blow up a rocket 
if it were to go astray. We typically have radars and telemetry 
dishes and command destruct antennas and a bunch of contractors 
working that.
    Today with SpaceX, when they launch, it is all done 
autonomously. That helps reduce the range infrastructure and 
make these, in my opinion, a more resilient capability going 
forward.
    Ms. Bordallo. Are there any other comments from the other 
witnesses? Are you aware of the inquiries that have been made 
to Guam? They have been to Guam to look at, of course, our 
Andersen Air Force Base and the Guam International Airport. So 
is anyone aware of that?
    Ms. Sapp. Some of the commercial launch providers are going 
to do their own assessment as to what makes sense for their 
business, and we are going to use those commercial launch 
providers. So we are going to go where they end up going.
    Ms. Bordallo. Well, they were very interested in Andersen 
Air Force Base, so I just thought maybe.
    So I have no further questions, and I yield back, Mr. 
Chairman.
    Mr. Rogers. The gentlewoman yields back.
    Seeing no further questions, we will--oh, he showed up. 
Slipped out on me and came back.
    The Chair now recognizes the gentleman from the great State 
of Alabama, Mr. Byrne, for any questions he may have.
    Mr. Byrne. Mr. Chairman, I did show up. I am glad you 
noticed.
    General, I hate to keep you for a few more minutes, but my 
questions really pertain to personnel. A lot of times when we 
talk about space we like to get talking about the technological 
stuff, but it is the people, as you know better than I do, that 
matter.
    Do you think you have the proper number of service members 
to do this? Do you believe you are efficiently manned to shift 
from a peacetime operational tempo to a warfighting one? And 
are we effectively utilizing the skills of these service 
members to capitalize on their talents?
    General Raymond. First of all, thank you for the question. 
And it gives me a chance to brag on the airmen that I am 
privileged to lead. We have got the world's finest airmen, and 
they are doing spectacular work for our Nation and our joint 
force.
    The Air Force has more mission than it does resources. And 
so, as part of that larger issue, looking forward to a 
contested environment, I do think there is room for growth.
    In fact, the Secretary of the Air Force and Chief of Staff 
of the Air Force have tasked me to conduct a study, which we 
are doing as we speak, to look at the structure, the size, the 
scope, the scale, the professional development aspects of those 
airmen, and I will report back to them this summer.
    Mr. Byrne. Do you think that you can shift, with your 
present number, from a peacetime scenario to a wartime 
scenario? Would you have to have an increase to do that?
    General Raymond. We operate 24/7, 365. It is global 
operations all the time. I am very comfortable that I have got 
the capabilities that I need today.
    Mr. Byrne. Okay. And you would be unusual if you weren't 
like everything else in the private sector, or in the public 
sector, and that is the rapidly changing need for skills 
development, because technology is moving so fast.
    Do you feel like you have got the resources you need to 
continually provide the skills training these folks need?
    General Raymond. I do. And as I mentioned, one of my big 
priorities for the command is professional development and 
developing operators to be able to operate in this contested 
environment. We have completely transformed how we train our 
operators. In this budget we, again, have invested in--I think 
you might have been out--$175 million in training 
infrastructure to be able to get after the challenges that we 
currently face.
    Mr. Byrne. Well, I am a strong supporter for what you are 
doing. I ran the workforce training system in Alabama, and you 
know what we are doing in Huntsville and at Maxwell Air Force 
Base. And keeping the civilian folks coming into that was part 
of my portfolio, and I was amazed at how rapidly things were 
moving.
    And I just know that you have got that on steroids. And I 
just want to express my support for what you are doing. And if 
you think you need more resources or help from us, please let 
us know.
    General Raymond. I really appreciate your support. Thank 
you.
    Mr. Byrne. Thank you.
    I yield back.
    Mr. Rogers. The gentleman yields back.
    We will now go into recess and reconvene in the SCIF 
[Secure Compartmented Information Facility] in about 10 
minutes.
    [Whereupon, at 5:10 p.m., the subcommittee proceeded in 
closed session.]



      
=======================================================================




                            A P P E N D I X

                             March 15, 2018

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 15, 2018

=======================================================================





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
  




      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 15, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. You have been dual-hatted as both the JFSCC and Space 
Command, did you receive any additional resources to execute those 
additional missions? Do you anticipate needing any in the future?
    General Raymond. [The information was not available at the time of 
printing.]
    Mr. Rogers. You frequently deferred to the classified session a 
number of issues I asked about, and in the classified session you 
frequently deferred again citing insufficient classification. This kind 
of purposeful dodging is unacceptable. In the context of deterrence, 
messaging your adversaries is an essential component of reducing 
misunderstanding and miscalculation. What are you doing to review 
appropriate classification guidance documents to ensure that you can 
share with Congress all the information necessary to perform our 
oversight in a transparent manner and message our adversaries about our 
capabilities?
    General Raymond. [The information was not available at the time of 
printing.]
    Mr. Rogers. I hear conflicting things about disaggregation and the 
budget documents are equally confusing. Is disaggregation a path the 
Department and the Air Force is walking down? If so where is it 
demonstrated in your Air Force Programs?
    General Raymond. [The information was not available at the time of 
printing.]
    Mr. Rogers. How is SMC reorganizing to better streamline space 
acquisitions?
    General Raymond. [The information was not available at the time of 
printing.]
    Mr. Rogers. How are you executing the enhanced OT&E authorities for 
space that we provided you in last year's NDAA?
    General Raymond. [The information was not available at the time of 
printing.]
    Mr. Rogers. How much of your time do you spend on space policy and 
space budget oversight in your role as ASD for Homeland Defense and 
Global Security? Do you feel you have the appropriate resources to 
oversee the DOD space policy and budget responsibilities as we 
transition to a warfighting domain?
    Secretary Rapuano. [The information was not available at the time 
of printing.]
    Mr. Rogers. What is your role in space licensing and registration 
for commercial remote sensing?
    Secretary Rapuano. [The information was not available at the time 
of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. The Wideband SATCOM AoA seeks to identify the best mix 
of military and commercial SATCOM and consider which mission support 
roles could be filled using emerging COMSATCOM capabilities.
    (1) Given the wide range of commercial SATCOM capabilities and the 
high cost and lengthy process for building and launching purpose-built 
satellites, what steps are being taken to fully leverage commercial 
space capabilities to enhance space resiliency?
    (2) Furthermore, what changes to the acquisition and budget 
processes are needed to make acquiring commercial SATCOM communications 
capabilities and integrating MILSATCOM and COMSATCOM a more enduring, 
collaborative, efficient, and timely process?
    (3) How do you envision AFSPC Commander General Raymond using his 
new authorities in this area, between the FY18 NDAA and his recent 
dual-hatting as your Joint Force Space Component Commander?
    General Raymond. [The information was not available at the time of 
printing.]
    Mr. Lamborn. (1) From SATCOM, to imagery, to weather data, SSA, and 
other areas, what are you doing to build bridges and leverage our 
significant advantages in commercial space entrepreneurialism?
    (2) What barriers do our space acquisition professionals face to 
deliberately and purposefully leverage commercial space to enhance the 
resilience and capacity of our military advantages in space?
    General Raymond. [The information was not available at the time of 
printing.]
    Mr. Lamborn. (1) From SATCOM, to imagery, to weather data, SSA, and 
other areas, what are you doing to build bridges and leverage our 
significant advantages in commercial space entrepreneurialism?
    (2) What barriers do our space acquisition professionals face to 
deliberately and purposefully leverage commercial space to enhance the 
resilience and capacity of our military advantages in space?
    Ms. Sapp. [The information was not available at the time of 
printing.]
    Mr. Lamborn. Now that AFSPC Commander Gen Raymond is dual-hatted as 
the Joint Force Space Component Commander, what are your thoughts on 
taking that a step further and making him a sub-unified joint commander 
under USSTRATCOM?
    (1) Would this help further align in a single person authorities 
for OTE with the authorities to plan, task, and direct space forces in 
the joint warfighting domain?
    (2) Would this create ``unity of decision'' in one person, similar 
to other organizations that have outpaced the threat (i.e., SOCOM, Navy 
Submarines, Strategic Air Command)?
    (3) Do you agree that we need one person with the right authorities 
to wake up every day and think about how to have the best military 
space program in the world? How would this change help accomplish this 
goal?
    Secretary Rapuano. [The information was not available at the time 
of printing.]
    Mr. Lamborn. The Wideband SATCOM AoA seeks to identify the best mix 
of military and commercial SATCOM and consider which mission support 
roles could be filled using emerging COMSATCOM capabilities.
    (1) Given the wide range of commercial SATCOM capabilities and the 
high cost and lengthy process for building and launching purpose-built 
satellites, what steps are being taken to fully leverage commercial 
space capabilities to enhance space resiliency?
    (2) Furthermore, what changes to the acquisition and budget 
processes are needed to make acquiring commercial SATCOM communications 
capabilities and integrating MILSATCOM and COMSATCOM a more enduring, 
collaborative, efficient, and timely process?
    (3) How do you envision AFSPC Commander General Raymond using his 
new authorities in this area, between the FY18 NDAA and his recent 
dual-hatting as your Joint Force Space Component Commander?
    Secretary Rapuano. [The information was not available at the time 
of printing.]
    Mr. Lamborn. (1) From SATCOM, to imagery, to weather data, SSA, and 
other areas, what are you doing to build bridges and leverage our 
significant advantages in commercial space entrepreneurialism?
    (2) What barriers do our space acquisition professionals face to 
deliberately and purposefully leverage commercial space to enhance the 
resilience and capacity of our military advantages in space?
    Secretary Rapuano. [The information was not available at the time 
of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. Last year's NDAA FY18 Conference Report terminated the 
position and office of the Principal Department of Defense Space 
Advisor (PDSA) and transferred duties, responsibilities and personnel 
to a single official selected by the Deputy Secretary of Defense. How 
does this new change impact the Air Force, the Department, and our 
readiness in the space warfighting domain?
    General Raymond. [The information was not available at the time of 
printing.]
    Mr. Turner. In order to maintain great power competition, should we 
be focusing on administrative changes such as a formation of a new 
service or the lethality of our national security space programs? Does 
our current budget reflect the latter?
    General Raymond. [The information was not available at the time of 
printing.]
    Mr. Turner. In order to maintain great power competition, should we 
be focusing on administrative changes such as a formation of a new 
service or the lethality of our national security space programs? Does 
our current budget reflect the latter?
    Ms. Sapp. [The information was not available at the time of 
printing.]
    Mr. Turner. During the hearing you mentioned that the President is 
``very focused on outcomes'' and is ``interested in the Department 
[being] best organized and equipped to achieve our vital missions in 
space''. You also mentioned that Deputy Secretary Shanahan will be 
providing the best set of options, per the request of Congress, in the 
final report due in August. Given our issues with great power 
competition against Russia and China, do we have the luxury of waiting 
for the final report or are there steps that Congress should be taking 
prior to the report?
    Secretary Rapuano. [The information was not available at the time 
of printing.]
    Mr. Turner. In order to maintain great power competition, should we 
be focusing on administrative changes such as a formation of a new 
service or the lethality of our national security space programs? Does 
our current budget reflect the latter?
    Secretary Rapuano. [The information was not available at the time 
of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. It is my understanding that traditional Evolved 
Expendable Launch Vehicle (EELV) providers are contracted under Federal 
Acquisition Regulations (FAR) 15, while new entrants are contracted 
under FAR 12. It is also my understanding that FAR 12 is a more 
commercial way of doing business than FAR 15. Please explain the 
differences in procuring launch services using FAR 12 vs. FAR 15. Does 
DOD have the same insight on costs, as well as oversight on mission 
assurance when using both of these contracting methods, or is one more 
stringent that the other? Should the Air Force consider contract 
mechanisms that ensure DOD has access to enough technical data to make 
an independent assessment in the case of an anomaly or launch failure? 
If so, what would that look like and if not, why not?
    General Raymond. [The information was not available at the time of 
printing.]
    Mr. Coffman. It is my understanding that traditional Evolved 
Expendable Launch Vehicle (EELV) providers are contracted under Federal 
Acquisition Regulations (FAR) 15, while new entrants are contracted 
under FAR 12. It is also my understanding that FAR 12 is a more 
commercial way of doing business than FAR 15. Please explain the 
differences in procuring launch services using FAR 12 vs. FAR 15. Does 
DOD have the same insight on costs, as well as oversight on mission 
assurance when using both of these contracting methods, or is one more 
stringent that the other? Should the Air Force consider contract 
mechanisms that ensure DOD has access to enough technical data to make 
an independent assessment in the case of an anomaly or launch failure? 
If so, what would that look like and if not, why not?
    Secretary Rapuano. [The information was not available at the time 
of printing.]

                                  <all>
</pre></body></html>
